U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Derrick Lucius Williams, Jr. v. United States of America,
No. 19-1221

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 13,
2020, and placed on the docket on April 16, 2020. The government’s response is now due, after
one extension, on June 17, 2020. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including June 19, 2020, within which to file a
response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1221
WILLIAMS, DERRICK L.
USA

SHAY DVORETZKY
JONES DAY
51 LOUISIANA AVENUE NW
WASHINGTON, DC 20001-2113
202-879-3474
SDVORETZKY@JONESDAY.COM

